<html>
<title> - FIELD HEARING: ROSEMEAD, CA: FOSTERING THE AMERICAN DREAM: HOW SBA CAN EMPOWER IMMIGRANT SMALL BUSINESS OWNERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
FIELD HEARING: ROSEMEAD, CA: FOSTERING THE AMERICAN DREAM: HOW SBA CAN 
                EMPOWER IMMIGRANT SMALL BUSINESS OWNERS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON INVESTIGATIONS, OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            NOVEMBER 8, 2019

                               __________

                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              





            Small Business Committee Document Number 116-057
             Available via the GPO Website: www.govinfo.gov
             
             
                            ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-215                 WASHINGTON : 2020
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Judy Chu....................................................     1

                               WITNESSES

Ms. Rachelle Arizmendi, Vice-President and Chief Operations 
  Officer, Pacific Asian Consortium in Employment (PACE), Los 
  Angeles, CA....................................................     4
Mr. Donald J. Loewel, MBA, Director, Small Business Development 
  Center, Pasadena City College, Pasadena, CA....................     6
Ms. Tatiana Bonilla, President, Andrew Design Group, Inc., 
  Pasadena, CA...................................................     7
Mr. Amir Salahi, Founder and CEO, Energy Advisor Hub, Pasadena, 
  CA.............................................................     9

                                APPENDIX

Prepared Statements:
    Ms. Rachelle Arizmendi, Vice-President and Chief Operations 
      Officer, Pacific Asian Consortium in Employment (PACE), Los 
      Angeles, CA................................................    24
    Mr. Donald J. Loewel, MBA, Director, Small Business 
      Development Center, Pasadena City College, Pasadena, CA....    27
    Ms. Tatiana Bonilla, President, Andrew Design Group, Inc., 
      Pasadena, CA...............................................    35
    Mr. Amir Salahi, Founder and CEO, Energy Advisor Hub, 
      Pasadena, CA...............................................    37
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


   FOSTERING THE AMERICAN DREAM: HOW SBA CAN EMPOWER IMMIGRANT SMALL 
                            BUSINESS OWNERS

                              ----------                              


                        FRIDAY, NOVEMBER 8, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Investigations, Oversight, and 
                                       Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
Rosemead City Hall, 8838 East Valley Boulevard, Rosemead, CA, 
Hon. Judy Chu presiding.
    Present: Representative Chu.
    Ms. CHU. Well, good morning. The 10 o'clock hour has 
arrived, and now I would like to call the Subcommittee of 
Investigations, Oversight, and Regulations to order. I thank 
you all for joining us.
    Let me begin by saying I am delighted to bring the U.S. 
House of Representatives' Small Business Subcommittee on 
Investigations, Oversight, and Regulations to the San Gabriel 
Valley. For those in attendance, I would like to share some 
background on these proceedings.
    This is a formal congressional field hearing of the House 
Committee on Small Business. Due to this format, there is not 
an opportunity for questions or comments from the audience. I 
appreciate your interest in today's important topic, and I hope 
that each of you will help uplift the issues that come out of 
our discussion today.
    In Washington, the House Small Business Committee is 
focused on making sure that aspiring entrepreneurs and existing 
small business owners have the tools that they need to succeed. 
We recognize that small businesses are a driving force in the 
American economy in creating jobs, spurring innovation, and 
strengthening the middle class.
    We also understand how important it is to hear directly 
from small business owners about what is happening in their 
communities. And to that end, we are holding field hearings 
across the country to hear firsthand about the experiences of 
small businesses.
    Today we will have a chance to talk about the contributions 
of immigrant-owned small businesses and what more can be done 
to help these entrepreneurs succeed and build a better life in 
this country.
    The immigrant story is the American story, and it is one 
that has fueled entrepreneurship and innovation in this country 
for centuries. Without the contributions of immigrants 
throughout American history, our economy would not be nearly as 
dynamic, innovative, or advanced as it is today.
    There are more than 45 million immigrants across the 
country, comprising 13.7 percent of the U.S. population. But 
these immigrants represent nearly 30 percent of all new 
entrepreneurs, which means they are launching new businesses at 
a much faster rate than non-immigrants. The trend is especially 
meaningful here in the 27th District of California, where 
nearly 39 percent of our neighbors immigrated to this country.
    These businesses are hugely successful. Whether it is an 
international success story like Panda Express, which was 
founded right here in Rosemead, or a small business on San 
Gabriel Boulevard that is ready to expand, immigrant-owned 
small businesses are the engine of the economic success of the 
San Gabriel Valley and throughout the country.
    In 2018, more than 3.1 million immigrants launched small 
businesses, employing more than 8 million people, generating 
more than $1.3 trillion in sales, and paying more than $4 
billion in taxes. Simply put, these small businesses are 
critical to the economic vitality and strength of our country.
    This is something we have all witnessed firsthand in 
California, where about 42 percent of new businesses are 
founded by immigrants, and nearly two-thirds of Main Street 
businesses in Los Angeles are immigrant owned. These small 
businesses are an essential part of our economy, particularly 
in diverse communities like ours.
    But studies have shown that immigrant small business owners 
face unique challenges, and I am interested in learning more 
about this from our distinguished panel of experts. Why are 
immigrant entrepreneurs twice as likely to start a small 
business compared to non-immigrants, and less likely to access 
traditional sources of capital? And what are the other barriers 
that immigrants must overcome to grow a successful business? 
This committee intends to explore the programs that SBA offers 
to these entrepreneurs, as well as the ways that it can better 
reach this population and harness the full potential of the 
immigrant entrepreneurial spirit, an endeavor that will benefit 
all Americans.
    In the face of unacceptable anti-immigrant policies in the 
Executive Branch, it is incumbent on us as representatives to 
focus on how the Federal Government can and must help those who 
come to this country and are working hard to build a life and 
establish a successful business. The House Small Business 
Committee is committed to finding how Congress and SBA can best 
serve these members of our communities, and this hearing is an 
essential part of those efforts.
    Again, I want to thank the witnesses for being here today, 
and I look forward to hearing your testimony.
    I would just take a moment to explain the structure of this 
hearing. First I will introduce all of our witnesses, and then 
each of you will be given 5 minutes to make an opening 
statement that summarizes your written testimony. We usually 
use a timer for this in D.C., but we will do without this here 
today.
    And now I would like to introduce our witnesses.
    Our first witness is Ms. Rachelle Arizmendi. Ms. Arizmendi 
is the Vice President and Chief Operating Officer of PACE, the 
Pacific Asian Consortium in Employment. The PACE Business 
Development Center is an SBA microloan intermediary and a 
Community Advantage lender that provides business training, 
technical assistance, and one-on-one counseling to thousands of 
entrepreneurs.
    In addition to her work at PACE, Ms. Arizmendi is a City 
Council member in the City of Sierra Madre, and a Board Member 
for the National Coalition for Asian Pacific American Community 
Development. Today, Ms. Arizmendi is going to talk about a PACE 
client, Mr. Colin Fung. Yes, she is going to tell his story, 
and I am so glad that he is here today and can participate in 
these hearings because we want to hear the story of the 
business people who have been able to take advantage of these 
services. So, thank you for being here today as well.
    Our next witness is Mr. Donald Loewel. Mr. Loewel is a 
Director of a Small Business Development Center, or SBDC, at 
Pasadena City College. And I am so glad you are here because 
when I first got elected to Congress, it was my mission to make 
sure that we would have an SBDC here in the San Gabriel Valley, 
and this SBDC at the Pasadena City College site is the result. 
We also were fortunate to get another one at the University of 
Laverne. But you are definitely the flagship, and I never miss 
an opportunity to plug the SBDC that is in the San Gabriel 
Valley. So thank you for being there and taking care of our 
budding entrepreneurs in the San Gabriel Valley.
    Mr. Loewel leads an experienced team of business 
consultants and entrepreneurs who advise small business owners, 
including some of our witnesses here, on raising capital, 
strategic planning, marketing, and much more. And, by the way, 
this is all for free. That is the miracle of the SBDC, and we 
are so fortunate that Mr. Loewel has over 20 years of sales, 
marketing, and management experience.
    The next witness is Ms. Tatiana Bonilla. Ms. Bonilla is the 
President of Andrew Design Group, an audio-visual consulting 
and engineering business that plans, designs, engineers, and 
installs technology for clients in a variety of different 
industries. She is a recent graduate of the SBA's Emerging 
Leaders Program, where she developed a growth plan to expand 
her business.
    And our fourth and final witness is Mr. Amir Salahi. Mr. 
Salahi is the Founder and CEO of Energy Advisor Hub, a software 
business that provides sales, management, and purchasing 
systems to small and medium-sized solar companies, helping them 
to leverage their buying power and lower costs for solar 
installations.
    Thank you to all of our witnesses today for joining us and 
for sharing your stories.
    Ms. Arizmendi, you are now recognized.

  STATEMENTS OF RACHELLE ARIZMENDI, VICE PRESIDENT AND CHIEF 
  OPERATIONS OFFICER, PACIFIC ASIAN CONSORTIUM IN EMPLOYMENT 
(PACE), LOS ANGELES, CA; DONALD J. LOEWEL, MBA, DIRECTOR, SMALL 
 BUSINESS DEVELOPMENT CENTER, PASADENA CITY COLLEGE, PASADENA, 
  CA; TATIANA BONILLA, PRESIDENT, ANDREW DESIGN GROUP, INC., 
PASADENA, CA; AMIR SALAHI, FOUNDER AND CEO, ENERGY ADVISOR HUB, 
                          PASADENA, CA

                STATEMENT OF RACHELLE ARIZMENDI

    Ms. ARIZMENDI. Thank you, Congresswoman Chu. Good morning 
to you as the Small Business Committee and the Subcommittee on 
Investigations, Oversight, and Regulations. Again, my name is 
Rachelle Arizmendi, Vice President and Chief Operating Officer 
of PACE, Pacific Asian Consortium in Employment.
    PACE is a non-profit Community Development Corporation that 
has worked with low-income and underrepresented communities in 
Los Angeles County for over 43 years. PACE was first conceived 
to meet the needs of employment and job training in the Asian 
Pacific Islander and minority communities but has since 
extended our services to include early education, affordable 
housing, energy and environmental services, and small business 
development for the community at large. For today's remarks, I 
want to focus on our business development and loan programs. We 
have worked with a variety of foundations, private 
organizations, and government agencies from the Federal, state, 
and local level to provide technical assistance, counseling, 
and access to capital for entrepreneurs and small business 
owners.
    PACE works with small businesses whose owners may be low 
income, immigrants, refugees, asylees, or ethnic minorities. 
Many of our clients are new to the U.S. and as a result have 
limited English ability, and unfortunately have little to no 
knowledge of the U.S. banking system, little to no credit 
history, and no access to capital.
    Since 1993, PACE has assisted more than 40,000 businesses 
and has packaged/placed/funded over $480 million in loans. As 
an organization, we strive to promote the triple bottom line: 
profit, social responsibility, and environmental 
sustainability. Furthermore, because of our diverse and 
multilingual staff, we are able to provide culturally 
responsive and in-language training and technical assistance.
    As a micro-lender and a CDFI--a Community Development 
Financial Institution--two of the primary products we use are 
the Small Business Administration SBA microloan and the SBA 
Community Advantage loan.
    Mr. Colin Fung, who I am thrilled is here today, not just 
in the audience but next to me, he is an ideal example of how 
businesses can benefit from the different SBA tools to grow, 
expand, create jobs, and provide sales tax revenue back into 
our region.
    Mr. Fung and his family migrated to the U.S. in 2012 from 
Hong Kong. With over 25 years of experience from his home 
country in catering and in the hotel business, Mr. Fung had a 
dream of what he wanted to accomplish in America: develop a 
franchised ramen restaurant. With his life savings, he opened 
Tamashii Ramen House in Sherman Oaks in September 2012.
    Soon thereafter, Mr. Fung did some research and found his 
way to PACE. After receiving some technical assistance from our 
business counselors, he applied for a $15,000 SBA microloan to 
use as working capital. With that capital injection he 
purchased new equipment and furniture for the restaurant, and 
within a year he was able to pay off the entire loan.
    In 2016, because Mr. Fung couldn't get enough of us, he 
came back to PACE and requested a second working capital loan 
of $60,000 to open up a second ramen house in Studio City. This 
$60,000 loan was a Community Advantage loan. Unfortunately, he 
faced delays in tenant improvement when the contractor 
abandoned the project. But Mr. Fung did not let this sway his 
determination or passion for success, and in August 2017 the 
Studio City location was finally opened for business. To help 
him maintain his cash flow while growing this location, PACE 
was able to grant him a third working capital loan of $30,000.
    Tamashii Ramen House has since created over 40 full-time 
and part-time jobs. Mr. Fung's vision, resilience, and passion 
make him a successful businessman, so much so that in 2015 Mr. 
Fung was recognized as an SBA Small Business Awardee.
    At PACE we hope to outreach to, connect with, and fund 
small businesses that need to close a deficit or finance gap or 
to inject capital into their businesses for improvements. When 
businesses first interface with PACE, they are typically not 
what we would call ``loan-ready'', nor can they walk into a 
traditional bank and be prepared to apply for a loan. What 
microloans and Community Advantage loans and similar products 
offer is an opportunity for small businesses to take that next 
transformative step and eventually transition into a 
conventional loan client, if need be.
    Anecdotally, we know these programs work, and I am 
confident that statistically you will find the same results. 
Take our default rates, for example. In our microloan program, 
we experience approximately a 10 percent default rate. 
Similarly, in the Community Advantage program, we experience a 
significantly lower default rate of 4 to 5 percent.
    We know firsthand the possibilities and opportunities that 
SBA products offer small business owners. Yet, there are 
improvements to these products that can be made.
    For 7a Community Advantage loan programs, I urge you to 
consider the following: establish the Community Advantage loan 
program as a permanent program; increase the loan cap to 
$350,000; expand the CA communities to include women-owned 
businesses, minority-owned businesses, and expand the language 
to include businesses owned by reservists, spouses of veterans, 
or members of the armed forces; and we also recommend to 
eliminate the 10 percent cap of Community Advantage loans of 
the 7a loans themselves.
    For reauthorization, key microloan improvements we 
encourage you to support include: elimination of the 50/50 
restriction on technical assistance; increasing the microloan 
intermediary limit from $6 million to $7 million that will 
allow statewide lenders, especially high-demand states like 
California, to better meet the demand for this important source 
of capital.
    Our approach at PACE has proven to be successful with the 
outreach to immigrant and underrepresented business owners. 
Leveraging the credibility of community-based organizations and 
utilizing intermediaries and CDFIs that have built trust with 
communities will be imperative to the future success of SBA's 
Community Advantage and microloan programs for traditional and 
immigrant businesses.
    Thank you for inviting me to testify on this matter and for 
prioritizing this within your Subcommittee.
    Ms. CHU. Thank you so much.
    Mr. Loewel, you are now recognized.

               STATEMENT OF DONALD J. LOEWEL, MBA

    Mr. LOEWEL. Thank you, Chairwoman Chu. You were an 
important, vital champion for our SBDC. We wouldn't be here 
without you, and we thank you.
    As you said, my name is Don Loewel, and I am the Director 
of the Small Business Development Center at Pasadena City 
College. I have worked for the SBDC at PCC since 2014, first as 
a business advisor and for the last 18 months as the Director. 
I have personally counseled over 300 small businesses and 
currently lead a team of 12 business professionals who provide 
one-to-one consulting and training to hundreds of clients in 
the San Gabriel Valley. Our mission is to stimulate the local 
and regional economy by supporting business owners and startup 
entrepreneurs.
    As reported, the SBDC is the largest of the SBA resource 
partners, with 63 lead centers and over 900 SBDC service 
centers across all 50 states and U.S. territories. At the SBDC, 
we provide counseling and training to entrepreneurs and small 
business owners on a variety of topics including business 
planning, marketing, international trade, and accessing 
capital. The SBDC also provides support to clients during 
disasters such as fires and floods. We help our small business 
clients start, grow, and succeed, and when needed, we help them 
recover and rebuild. In 2018, our network served over 4,700 
clients, helped launch more than 400 new businesses, and 
supported $165 million in capital infusion.
    The SBDC at Pasadena City College is one of two located in 
the San Gabriel Valley, as you mentioned. The San Gabriel 
Valley is an area made up of 31 cities in Los Angeles County. 
Per California employment development data, there were over 
75,000 businesses in San Gabriel Valley in 2017, 69 percent of 
which were owned by Asians or Hispanics, many of whom are 
immigrants.
    The PCC SBDC has been growing rapidly. Last year we 
received additional funding from the State of California, and 
we put it to use expanding our services. We are on track to 
double the number of clients we served in 2018 and will help 
launch almost 50 small businesses in 2019.
    Our SBDC is supported by a great host institution at 
Pasadena City College, which is nationally recognized as one of 
the top city colleges in the nation. Our work at the PCC SBDC 
builds on a foundational commitment at Pasadena City College to 
be of service to marginalized communities of all kinds. To that 
end, PCC agreed to provide space for us to expand our services 
to a satellite campus here in Rosemead. This campus is located 
within a few miles of several underserved business communities 
and is adjacent to several HUB Zone census tracts. This 
expansion allows us to make an even greater impact in San 
Gabriel Valley.
    So, with all of that as background, let's get to a few 
suggestions for how the SBA can improve its impact.
    The number-one opportunity we have is to improve small 
businesses' awareness. We offer amazing services at no cost, 
but it is difficult to serve clients if they are not aware of 
who we are, and how we can help. I recently learned about H.R. 
4406, the Small Business Development Centers Improvement Act of 
2019, which would permit SBDCs to use Federal funds to market 
our services directly to small businesses, and this is really 
exciting news.
    Additional support from the SBA to raise awareness 
nationally would also be very helpful.
    Secondly, support for multilingual advisors. Once we have 
identified and bring advisors into underserved areas, it is 
important to build trust by providing advising in the client's 
native language. As an example, the LA network has done a great 
job engaging the Hispanic business community in East LA with an 
initiative that provides three advisors who speak Spanish. It 
has built trust in the community, and local business owners 
have engaged with the program.
    Lastly, the SBA could engage Community Redevelopment Act 
departments of our lending partners. Banks are required to 
provide support to small businesses, and they can leverage our 
technical assistance while introducing us to large numbers of 
small business owners. My team has met several small business 
clients from the work we have done together with the CRA 
department at Cathay Bank in El Monte, CA, and this may be 
something the SBA could do on a larger scale.
    Finally, I would like to conclude by recognizing some of 
our partners. Our host, Pasadena City College, is supportive of 
the work of the SBDC. The senior management team has a clear 
understanding of how the SBDC complements the mission of 
Pasadena City College, and they have supported the expansion of 
our center to a secondary location here in Rosemead, CA.
    I would also like to recognize our partners at the local 
Chambers of Commerce, especially Ray Jan and Dr. Robert Bell 
here at the Rosemead Chamber.
    And lastly, I would like to thank Victor Parker and his 
team at the SBA District Office in Los Angeles. They value and 
support the work of our center and have been a great partner in 
the growth of our services.
    Thank you again, Chairwoman Chu. I greatly appreciate the 
opportunity to be here, and I would be happy to take any 
questions.
    Ms. CHU. Thank you so much.
    Ms. Bonilla, you are now recognized.

                  STATEMENT OF TATIANA BONILLA

    Ms. BONILLA. Good morning, audience, Ms. Chu. It is an 
honor for me to be here today sharing my story. My name is 
Tatiana. I am the President of Andrew Design Group. We are an 
A/V audio-video technology design and engineering firm.
    Andrew Design Group was founded back in 1998 by my husband, 
Carlos, and by myself. My husband emigrated from Ecuador, South 
America when he was 5 years old. He attended a local public 
school in Pasadena and continued his education at CalPoly 
Pomona. He graduated as an electrical engineer there. On the 
other hand, I immigrated the same, from Ecuador, to the United 
States as an adult. I started taking ESL classes, English as a 
second language, and worked my way up to college. I graduated 
from CalPoly Pomona with a degree in Business Administration.
    By 1998, Carlos had been working for several companies. 
Some of them are Disneyland, Universal Studios, and other 
consulting firms. At that point we realized that everybody 
wanted him. He was so good at what he did that every six months 
he was receiving a call from a different company asking him for 
his services. So we recognized an opportunity. Everybody wanted 
him, so why not serve everybody? That is why we created Andrew 
Design Group, with the idea of providing AV technology design 
and engineering services to architects, commercial property 
owners, education and healthcare institutions, building 
developers, and AV contractors.
    We have been working non-stop for the past 20 years, and we 
are proud to say that we are recession proof. When many 
businesses similar to ours closed when the recession hit back 
in 2007, Andrew Design Group grew; in fact, we have been 
growing steadily since then.
    Looking back to what we have accomplished in the past 20 
years, we are very proud to be part of many important projects 
here in the United States. We worked in Euro Disney in Paris. 
We worked in Honeywell Dubai and other big projects around the 
world. But what is next? As a small business owner, we fell 
into the millions of small business owners that are owned by 
Hispanics that stay in the same place, mom and pop shops, for 
many years, and we don't grow.
    So we had to stop this year and think where do we want to 
take our business. Coincidentally, we met in one of the network 
venues Beatriz Davis from the Small Business Association. She 
asked me about our business and I told her what we do, and she 
said you are a perfect candidate for the leadership program 
handled by the Small Business Association. I applied and I got 
into the program. Going through the different modules about 
marketing, finances, human resources, it gave me a better 
perspective about what am I doing and where do I want to take 
my business. Our goal was to grow our business to a bigger 
facility, increase our workforce, and become advocates and 
mentors for small businesses like ours. But how do we do that? 
I have been to many events and seen many stories of small 
businesses like mine that grew, but what did they do that I 
didn't do? Why do I still stay in this stage where other ones 
have become huge companies?
    So I realized that I didn't know where to go and ask for 
help. I had been in isolation taking care of all the operations 
of my own business that I had not looked into what is 
available. So I learned about the Small Business Association; 
and, yes, it was free. It was all these resources within my 
reach for free. So I started going there and, like I said, I 
have been learning. I have been meeting with small businesses 
like mine to understand what they are doing right, what they 
are doing wrong, and what can I do to grow my business.
    I refused to stay at the same stage, and like I mentioned, 
our goal is to grow. This program has allowed me to understand 
what it is that we should be doing as a business owner and 
where do I want to take my company. Honestly, I started the 
program questioning where do I want to take it; and if so, do I 
have what is needed to be there.
    Every module, as I mentioned, provided me with the tools to 
understand not only my capabilities as a leader but to 
understand my business. This program has opened many doors for 
me, from training to advisory and the resources that are there 
for me to take advantage of.
    Thank you very much.
    Ms. CHU. Thank you, Ms. Bonilla.
    And now, Mr. Salahi, you are now recognized.

                    STATEMENT OF AMIR SALAHI

    Mr. SALAHI. Thank you. Mrs. Chairwoman, respected members 
of the Committee, and dear witnesses, I am honored and humbled 
to be here today.
    Nearly 10 percent of immigrants in the U.S. have become 
business owners. They pay $126 billion in wages in our local 
communities every year. These numbers can grow exponentially, 
but it needs SBA's support more than before.
    Ladies and gentlemen, my name is Amir Salahi, and I am 
proud to be an immigrant entrepreneur who had the privilege to 
move to the Land of Opportunity in 2007. I am an electrical 
engineer with a Master's in Engineering Management.
    My professional life in the United States started by 
working for some of the bigger companies in clean tech and 
renewables. My amazing co-founder, Mr. Chris Gregory, and I 
were among the top 1 percent of producers at a huge solar 
company. But I always wanted to start my own business, so I was 
looking for an opportunity to solve a problem and turn it into 
a great company.
    I am the Founder and CEO of Energy Advisor Hub, also known 
as RenuLogix. We empower smaller solar installers. For the past 
two-and-a-half years we have been developing, testing, and 
launching a cloud-based integrated solar installation system. 
For the smaller solar installer, RenuLogix is the first system 
of its kind in the world.
    Three years ago, we decided to start our small business 
journey. Along the way, we received some awesome startup 
consulting from SBA advisors who helped us find our way at the 
early stages of our business. Thank you, SBA; and thank you, 
Don.
    These are exciting times in the solar industry.
    Over $1 trillion dollars' worth of solar panels will be 
installed on the rooftops of homes in the United States in the 
next three decades.
    Three major companies carry out nearly half of all the 
installations in the United States. That leaves over half of 
all installations in the hands of small and medium-size solar 
companies. There are over 12,000 of them in the United States. 
These smaller installers have challenges. They have no brand 
presence like the big guys. Where the three big guys have built 
their own proprietary systems to streamline their business from 
start to finish, smaller installers struggle and tend to run 
their businesses on Post-It notes, spreadsheets, and disjointed 
systems. And they have no purchasing power, so their profit 
margins are razor thin.
    Nevertheless, smaller solar companies have created 
thousands of jobs in our local communities, so they deserve our 
attention.
    As Congresswoman Judy Chu has said, by investing in 
renewables, not only do we create jobs for Americans, we also 
preserve our natural resources and our planet for future 
generations. So I would like to thank you and thank all of your 
colleagues and team members who support us and have been a 
tremendous support for clean power, including solar.
    Solar will be the predominant source of energy for our 
future, for our country, and for the whole world.
    Congresswoman Chu, we need your help and your colleagues' 
support more than ever before to pass and approve legislation 
to provide credits to expedite our transition from limited, 
dirty fossil fuels to unlimited renewables.
    The move to renewables is not a cost to this country, it is 
an opportunity, a big one.
    America is number one in digital innovation. Immigrants can 
help the United States to extend that lead. But immigrant 
entrepreneurs need better access to capital. Immigrants 
represent 13 percent of the U.S. population but nearly 30 
percent of all entrepreneurs. The Huffington Post, Red Bull, 
Tesla, SpaceX, and Google are just a few good examples of 
companies that were founded by immigrant entrepreneurs.
    A Harvard Business Review study reveals that public money 
may be better invested in building incubators for immigrant 
entrepreneurs than spent on building border walls.
    Immigrants come here with cross-cultural experience, and 
that is why they are more likely to identify business 
opportunities.
    In the first quarter of 2020, RenuLogix plans to launch a 
new green community program. We plan to do this work because it 
will benefit small solar businesses and because it will 
accelerate our progress to renewable energy. We will train and 
certify hundreds of smaller solar installers to become more 
professional, more competitive, and more ready to grow. We plan 
to start this program right here in Southern California 
District 27. We estimate that this program alone could be worth 
millions of dollars, hundreds of millions of dollars to the 
economy of Southern California, while cutting billions of tons 
of carbon emissions.
    Thank you very much for this opportunity, and I would love 
to answer any questions.
    Ms. CHU. Well, thank you so much for that testimony.
    I will begin by recognizing myself for questions.
    I truly appreciate the expertise of our agencies, and also 
the firsthand testimony of our witnesses. In fact, you changed 
the narrative, because there are those in the White House who 
would say that immigrants are a drain on this economy, but to 
me what you show in each of your stories is that you are a 
stimulus to the economy. Look at how many jobs you have 
created. Look at how many businesses you have been able to spur 
through all your actions. I am just very, very impressed by 
each of your stories.
    So I would like to begin by asking our business 
entrepreneurs--Mr. Fung, Ms. Bonilla, and Mr. Salahi--you all 
came to this country as immigrants, and now you all own 
successful small businesses. Can you each take some time to 
discuss what motivated you to start your own business, and did 
you move to the United States with aspirations to be a business 
owner?
    Mr. Fung?
    Mr. FUNG. Thank you. My name is Colin Fung, and I am the 
owner of Tamashii Ramen House. We moved to the United States in 
2012. I have 25, 30 years of catering hotel experience, so 
owning your own restaurant is your lifelong dream. When we 
started a business in 2012, and then I opened my first 
restaurant, a small ramen house, and then very soon we went for 
another location to open my second one. But the construction 
took longer than what I expect. At the time when the 
construction was finished, the restaurant was a big one, but I 
needed cash for my equipment.
    But somebody referred me to PACE, maybe they can help you. 
So I give them a call after, and then I was able to open the 
restaurant right away, and then I make money, and then I think 
there is an opportunity, so I opened my third restaurant, and 
then I go back to PACE again and asked for another loan. Thank 
you so much for PACE.
    Also, they not just give you a loan but they are really 
concerned about your business. Now they come and visit us and 
check how is the business. I intend to open the fourth or fifth 
one.
    Until this moment I thank you so much for PACE. Thank you 
so much.
    Ms. CHU. Mr. Fung, so you have three ramen houses now?
    Mr. FUNG. Yes, I do.
    Ms. CHU. I am wondering about that referral to PACE. How 
did you get that referral? How did that information come to 
you?
    Mr. FUNG. I needed cash and I tried to get a loan from the 
bank, but I was a new immigrant, I didn't have any credit. I 
don't own a house or anything, so they were not able to give me 
a loan. So my bookkeeper, she told me why don't you give PACE a 
call, maybe they can help you. So I met with the counselor and 
they helped me to move on, although it is a small amount, but 
it really helped.
    Ms. CHU. So you did not have credit and you started with a 
microloan, and the microloan is easier to get, I assume, even 
if you don't have the background, but then you built up, you 
built up your portfolio.
    Mr. FUNG. Yes.
    Ms. CHU. Okay, very good.
    Ms. Bonilla?
    Ms. BONILLA. Thank you very much. Well, I moved to this 
country around 20 years ago with no English, as I mentioned in 
my opening statement. So for me, the priority was to learn 
English. That was priority number one, and get an education. I 
did not envision myself as a business owner just because I 
thought that it was very difficult. Back in Ecuador it is 
difficult to own your business, so I thought that it was going 
to be the same here. So the answer is no.
    But then when I graduated from college, I realized all the 
opportunities that were there for me, in my reach. One was to 
continue in a career, continue to further my career, or join my 
husband in his small business. And when I saw how successful he 
was and the need that he had for somebody at his side, I joined 
him.
    But one thing that I found was very interesting, and it is 
very common amongst Hispanics, is motivation. We are very 
motivated people, and we learn from others. I have seen people, 
like I also mentioned in my opening statement, people in very 
different stages in their career. I have seen them and I want 
to be like them, so I feel motivated. I tried to put myself in 
that position and improve myself.
    So motivation is number one, the big drive.
    I have learned to trust. I have learned to trust the 
services that are around me and the opportunity that is around 
me and take advantage of that.
    So, yes, that is my story.
    Ms. CHU. Very good.
    Mr. SALAHI. Thank you very much for the opportunity. Yes, I 
always wanted to start my own business, and I have that desire 
for a long, long time. And being a business owner or 
entrepreneur is more than a want. It is not I want to be an 
entrepreneur; it is a passion. It is a dedication. It is a 
desire to solve problems.
    As I mentioned in my testimony, basically the immigrants 
have the cross-cultural experience. So when they see an issue, 
they can identify the problem and possibly come up with the 
solution. The ones who have the desire to start their own 
business, those are the ones who start great companies. So that 
is my answer to that question.
    Ms. CHU. And you were able to utilize SBA's help.
    Mr. SALAHI. Sure. We got to know SBA through a shared space 
called Cross Campus. So SBA has partnership with Cross Campus. 
They have dedicated advisors coming to the facility, spending 
the time right there, and they are making it easy for startups 
just to book the appointment, go there and learn from the 
advisors who have 20 years of experience in sales, marketing, 
and business operations. This was very helpful, and this is 
just the starting point of it. We will be in touch with PACE, 
with SBA more than before.
    Ms. CHU. Excellent.
    I would now like to ask our experts, the agencies, about 
these programs, and also your recommendations.
    Ms. Arizmendi, PACE is a non-profit organization and a 
designated SBA Community Advantage lender. Can you first 
explain how PACE's mission differs from a traditional for-
profit financial institution?
    Ms. ARIZMENDI. Thank you for the question. I think what is 
most important to understand is the work that we do. Because we 
are mission driven, it is not just about the bottom line. It is 
not about the dollar. We really invest in the community, invest 
in people. Our focus is on low-income individuals and 
businesses, but we are about promoting economic sufficiency and 
really finding solutions for individuals to become self-
sufficient.
    At the end of the day we still operate as a business, but 
our focus is not and our priority is not on the dollar. It is 
on the individual, and it is on the community.
    Ms. CHU. So, for instance, Mr. Fung came, and he didn't 
have a credit background, but you gave him a microloan. How did 
you make that determination?
    Ms. ARIZMENDI. Many of the businesses that come through 
PACE are exactly like Mr. Fung. A lot of them do not have any 
credit. A lot of them do not have any collateral. But we take a 
different look at a different perspective in the underwriting 
process. We look at presence in the community, experience, 
willingness to accept technical assistance, and we also provide 
the technical assistance ourselves. So it is not just reviewing 
documents. It is understanding who the person is, what their 
business is, how we can provide support, because we want them 
to be successful not just because of the loaning and lending 
part but, again, it is the overall philosophy and the mission 
of our organization.
    Ms. CHU. And does speaking to these budding entrepreneurs 
in their own languages, is that important?
    Ms. ARIZMENDI. Absolutely, not just in terms of in-language 
technical assistance and training, but also understanding 
culture. One reason I think that we are able to outreach to so 
many immigrants is because, yes, we have the language 
competency, but we have a presence in the community, and many 
times immigrants are fearful or reluctant to interact with any 
government type of agency or organization. So as much as PACE 
is a non-profit organization receiving government funding, it 
is about building the trust with the immigrant community so 
that we feel like they are approachable, and we are 
approachable also.
    Ms. CHU. In terms of language capabilities and your 
clients, how often do you speak to them in their own language? 
Would you say it is a quarter or half?
    Ms. ARIZMENDI. You know, I don't have exactly what that 
percentage is, but I would say that in the business division of 
the work that we do, I would say it is a pretty high 
percentage. We don't just speak different Asian languages. In 
fact, as an organization we have over 40 different languages 
that we speak. But in our business development center, 
different Asian languages plus Spanish, I would say it is well 
over maybe 50 to 60 percent. That is an estimate.
    Ms. CHU. And you said that you also address the cultural 
issues.
    Ms. ARIZMENDI. Yes.
    Ms. CHU. Can you explain or give an example of what you 
mean by that?
    Ms. ARIZMENDI. I think most of that is the trust issue 
again, with approaching government entities or entities that 
have a government feel to them. We have some Cambodian 
immigrants that we work with, and when they are coming from 
their home country, if you have any type of government 
association with you, it is very much distrusted, and that 
again is cultural. Some of it is just how you interact. It is 
the way we approach each other and the way that we talk to each 
other. It could also mean more face-to-face versus on the 
phone. So we take all of that into account when we are working 
with our clients.
    Ms. CHU. I have a special interest in Community Advantage 
because so many from across this nation who are providers have 
told me that this program is really great for reaching the 
underserved. So can you explain what the Community Advantage 
program is?
    Ms. ARIZMENDI. Yes. I am going to start with Mr. Fung's 
experience, because he had shared that he walked into a bank 
and was unable to get a loan. What Community Advantage does is 
it offers an opportunity for a non-financial institution like 
PACE, that even though we are a community development financial 
institution, we are not a typical bank, but it offers us the 
opportunity to work with businesses that, again, are typically 
unbankable. We are willing to take that risk of lending out to 
someone that may not have a track record or have a credit 
history, and the Community Advantage loan gives us some type of 
guarantee to take that risk.
    So what the SBA does, what this loan product does is it 
puts trust into organizations or CDFIs that can take that risk 
that no one else will take. Would we take that risk with 
immigrants' businesses otherwise? Possibly, but probably not at 
the rate that we currently do now.
    Ms. CHU. In your testimony you said that your default rate 
is really low, 4 percent or 5 percent.
    Ms. ARIZMENDI. Yes.
    Ms. CHU. How did you manage that?
    Ms. ARIZMENDI. I think what makes a difference is really 
the technical assistance and the personal relationship that we 
have with our businesses. So it is not just reviewing papers 
and providing a loan. It is how do we make sure that you are 
successful, what do we need to do to provide that. So the 
lending aspect is one piece of it, but just as important is the 
technical assistance and the counseling piece to it. The two 
definitely have to go hand in hand.
    Ms. CHU. In your recommendations, you talk about expanding 
the communities that one can do outreach to. So tell me who you 
can do the Community Advantage Program for now and who you want 
to expand it to.
    Ms. ARIZMENDI. For PACE, we have the ability now to work 
with immigrants and other women-owned businesses. I think what 
we are seeing is also a recognition for other CDFIs to expand 
that to business owners that include reservists, spouses of 
veterans, and members of the armed forces. We currently can do 
some work, but if we can expand that language, it will allow 
others to have the opportunity to be able to utilize the SBA 
Community Advantage loan.
    Ms. CHU. Let me ask about the fact that Community Advantage 
right now is only a pilot program, and therefore it is subject 
to unexpected changes by the SBA. In fact, most recently, an 
SBA policy notice placed a moratorium on accepting new 
Community Advantage lender applications. So can you discuss the 
challenges that you face, especially when it comes to planning 
your lending for the next six to twelve months, when SBA 
changes the rules that govern lenders without notice?
    Ms. ARIZMENDI. As far as my recommendations, I did say that 
we would definitely urge the SBA committee to support this to 
be a permanent program. We were certified back in 2014, and we 
are thankful that the program has continued, but I think to 
move it to a permanent status would be advantageous for its 
current providers or lenders, and also to others. Changes in 
regulation obviously affect what we do. Right now we have a 
pipeline of almost $400,000 in loans, and we have over six 
clients just even in that small pipeline. But those are 
Community Advantage loan pipeline potential borrowers.
    If there are changes in the next six months, twelve months, 
that could put a stop to these potential lenders. And as you 
can see, there is such a benefit from being able to provide 
these loans through jobs, through revenue. And if there are 
changes within the next six months, that could impede and 
create an obstacle for those who are already in the pipeline.
    Ms. CHU. So this gives even more credence to the fact that 
this Community Advantage Program should be a permanent program. 
In fact, I am going to be introducing a bill that would do just 
that. So I thank you for showing us how important it is to do 
that.
    Can you explain why would you recommend also eliminating 
the 10 percent cap on Community Advantage loans?
    Ms. ARIZMENDI. As you can see, there is success in 
Community Advantage loans, and if only X amount of dollars are 
provided in the 7a Community Advantage loans and you are 
limiting it and capping it at the 10 percent, I think it does a 
disservice to immigrant businesses. Of course, we would like 
the entire pie to be larger, but if we can increase that cap 
just for Community Advantage loans, we have, again, these 
pipelines of businesses that are ready to go that we would like 
to fund. I think it would be a benefit not just for immigrant 
businesses but really for business across the nation.
    Ms. CHU. And then let's turn our attention to microloans. 
Those are loans up to $50,000?
    Ms. ARIZMENDI. Yes.
    Ms. CHU. The Associate Administrator of SBA's Office of 
Capital Access, Bill Manger, has consistently praised the 
microloan programs as one of the strongest performing loan 
programs at SBA. While strong performance measures are 
important, the microloan program is unique in that microloan 
intermediaries are also required to provide pre-loan technical 
assistance to prospective borrowers.
    Can you discuss how this aspect of the microloan program 
makes it effective at serving immigrant entrepreneurs?
    Ms. ARIZMENDI. Yes. I believe that it can be effective, but 
it can also be a challenge. As I showed in my testimony, and 
also with Mr. Fung, this is not just about a program where we 
give money. It is about how we provide that personal 
relationship and service and technical assistance along the 
way.
    The challenge in microloans is when we have a 50 percent 
requirement for technical assistance. In many cases, and like 
in the case of PACE, we have other streams of funds for the 
technical assistance, and if we can designate a higher dollar 
amount or higher percentage amount of the microloans from 50 
percent, have no limit and/or increase that, we can fund 
technical assistance from other sources and allow more dollars 
to lend out to small businesses.
    Ms. CHU. So eliminating the 50/50 would give more dollars 
for this microloan program?
    Ms. ARIZMENDI. Yes.
    Ms. CHU. And then you are talking about increasing the 
microloan intermediary limit from $6 million to $7 million. 
Why?
    Ms. ARIZMENDI. I think very simply, as in a state like 
California, there is just more of a need. When you have high-
density population areas, high-density business areas, if we 
can provide more dollars and inject the capital into a region 
and not have that limit, I think it would be more advantageous 
for the region and also for businesses.
    Ms. CHU. Okay.
    Mr. Loewel, Small Business Development Centers, what do you 
see with all the clients you have come through your doors? What 
are the major obstacles that you see are faced by immigrant-
owned small businesses in the San Gabriel Valley?
    Mr. LOEWEL. Thank you for the question. By the way, I want 
to comment that the Kauffman Report that was cited in your 
hearing memo was excellent and covered quite a few of those 
obstacles.
    Going back to my testimony, I would have to say immigrant 
business owners finding their way to SBDC resources and then 
trusting that we are there to support them are the two biggest 
obstacles. Once they find out about us, are they willing to 
trust us and come and seek our help. Those are the biggest.
    From there, language barriers are definitely an issue, and 
it is not just speaking their native language. In my experience 
most business owners in my experience can conduct business in 
English, but when you start to get into some of the more 
complex information around things like financial statements 
and, loan documents, it is better if we can communicate with 
them in their natural language.
    Ms. CHU. How are you dealing with the language issue right 
now when people come speaking different languages as their 
native language?
    Mr. LOEWEL. In many cases we can refer it. I mentioned the 
East LA initiative. We have a great support mechanism there for 
Spanish speaking in particular. At my center we are adding 
advisors, especially for our rollout here in Rosemead. I have a 
new advisor who speaks Mandarin, as well as Cantonese. She is 
going to be a big addition.
    I will say that as this awareness grows, we are going to 
need to scale that. We are going to need to get out ahead of it 
to really service those clients.
    Ms. CHU. How do people know about the SBDC? When they come 
in the doors, how is it that they are aware of the services?
    Mr. LOEWEL. Sure. So, I think I would have to say word of 
mouth is probably our primary referral. The success stories are 
numerous. One of the fulfilling things about working for the 
SBDC is the response we get from our clients. They really 
appreciate that we are there for them, so they share that with 
their friends and other business owners. That is the primary 
referral network for our existing clients. We try to reach out 
to them and stay in front of them so they will continue to do 
that.
    The other would be our local Chambers of Commerce. We can 
partner with them quite well to help them increase their 
membership. In exchange, they share with their members, more 
about us and the value that we bring, and I have seen a lot of 
my growth come through great relationships with organizations 
like Chambers of Commerce.
    Ms. CHU. So right now you can't use any of your funds for 
marketing?
    Mr. LOEWEL. Very, very limited. One of our state grants 
will allow us to spend on marketing, but it is limited.
    Ms. CHU. Then let's go to this potential change that could 
occur, which is that just a few weeks ago, on October 21st, the 
House passed H.R. 4406, the Small Business Development Centers 
Improvement Act of 2019, and it would reauthorize the SBDC 
network through 2023 and permit SBDCs to use Federal funds to 
market their services directly to small businesses. Of course, 
this bill has to go through the Senate and then get signed by 
the President in order for it to get into operation. But how do 
you think this change would help your SBDC to reach more 
immigrant small business owners who may not be able to access 
the services that you offer?
    Mr. LOEWEL. Needless to say, I think it is fantastic. I am 
really excited about that potential. It will require, again, us 
to scale. So, I am equal parts excited and also have some work 
to do. If we are able to spend money on marketing, we are going 
to need to add advisors as well, which is a good problem to 
have. In addition to some of the more traditional marketing 
that we could do with those funds, we could also expand 
programs similar to what Amir talked about, having the ability 
to take advisors and put them into the market and allow them to 
interact with potential clients. That is what we did at Cross 
Campus. I actually was the advisor at Cross Campus when Amir 
came by, and that is how we met.
    But again, if you could imagine doing something similar in 
underserved markets here in Rosemead, El Monte, a great 
opportunity for us to use funding not just for consulting but 
also for engaging the community. I am very excited about it.
    Ms. CHU. I hope when you do that marketing, that it can be 
in different languages as well.
    Mr. LOEWEL. It will have to be, to be honest with you, and 
then we are going to need to do some analysis in terms of how 
to reach each customer segment. It is interesting that we train 
our clients on how to identify proper customer segments, and we 
need to do it as well. For some clients it may be radio. For 
others it may be print or electronic media. We are going to 
need to evaluate those and proceed accordingly.
    Ms. CHU. I was very interested in your partnering with the 
Community Redevelopment Act departments and your partnership 
with Cathay Bank in El Monte. You talked about meeting with 
several of these business clients and partnering on four 
workshops where you went to, I guess, their client base, right?
    Mr. LOEWEL. Correct.
    Ms. CHU. And then you did these training programs with 
them.
    Mr. LOEWEL. Correct.
    Ms. CHU. Are you saying that this is not done on a 
widespread basis?
    Mr. LOEWEL. Not to my knowledge. What I was saying is it 
has worked well for me, and so I thought I would share that. I 
can't say that it is not being done. I am not familiar with it 
being done within our network, but it has worked really well 
for me. That side of the bank, if you will, is focused on 
delivering services, not providing loans. So, our goals are 
aligned, our missions are aligned to help small business 
clients. They have small business clients; I have the no-cost, 
technical assistance. It has been a good partnership so far.
    Ms. CHU. It is something you should promote because that is 
a wonderful partnership there.
    Mr. LOEWEL. I agree.
    Ms. CHU. And then I wanted to ask you about exporting; that 
is, entering the international markets. SBA offers online 
training courses to help businesses who want to export, as well 
as several loans aimed at exporting, including export express 
loan, international trade loan, and export working capital 
loan. SBDC can connect these businesses also to local trade 
resources like the District Export Council of Southern 
California and the U.S. Commercial Service, which is the trade 
(inaudible) with the U.S. Department of Commerce.
    So, actually only 5 percent of America's small businesses 
export products overseas, and yet 95 percent of consumers 
around the world live abroad. SBA's research has found that 
immigrant businesses are more likely to export their goods and 
services than non-immigrant businesses. So what are some of the 
benefits that you see of exporting, and how can an SBDC like 
yours help with a business that is interested in exporting?
    Mr. LOEWEL. So, this is a really timely question. In the LA 
network, we are very fortunate. One of our centers, the center 
in Ventura, is a nationally recognized center for their work 
with international trade. A recently conducted study looked at 
businesses that export versus those that don't, and what they 
found was pretty amazing.
    First of all, businesses that export are in business eight 
years longer than those who don't. They generate as much as 
four times as much revenue as those who don't, and they hire 
more employees than those who don't. So, as I was discussing 
this with the center manager, the comment he made was if you 
are at a distinct disadvantage, and it is extremely important 
to develop that, if applicable.
    Now, in terms of how we can help, that center has an 
amazing level of expertise, which it shares throughout the 
network. It is also something he is helping us build here in 
the Rosemead/El Monte area, because there are hundreds of 
businesses that may be interested, and we can help with things 
like regulations, import/export documentation, financing, etc. 
They have a complete program to support that, and it is going 
to be an important part of what we do here.
    Ms. CHU. Is it harder to export right now in today's 
climate?
    Mr. LOEWEL. Anecdotally, I have heard is that some 
businesses may be on the sidelines, if you will, waiting to see 
how the trade issues are going to work out. I don't know if it 
is more difficult, but I have heard that some businesses may be 
waiting, as opposed to investing in that part of their 
business.
    Ms. CHU. Okay. Thank you.
    Ms. Bonilla, I want to hear more about the SBA's Emerging 
Leaders Initiative for Executives. I understand it provides 
more than 100 hours of specialized training and classroom 
instruction, as well as opportunities to work with experienced 
coaches and leaders in the community. As a recent graduate of 
the program, could you discuss the benefits that you felt it 
gave to you and how it changed your plans to take your business 
to the next level?
    Ms. BONILLA. Of course, Ms. Chu. Thank you very much for 
asking that question. I couldn't wait.
    There are so many benefits that, first of all, I would like 
to share with you what is the major problem amongst small 
business owners, the problem of isolation. We are so submerged 
in the everyday operations of our business, we are the jack of 
all trades. We do everything ranging from business development, 
marketing, taking the trash out, whatever it takes to make our 
business successful. So we don't see anything out there.
    You know, in 20 years being in this business, I never heard 
of the Small Business Association, never heard of any of that, 
absolutely. To me, that is one of the biggest problems, not 
knowing what is out there. These great associations or 
organizations, the outreach I believe is very limited. I'm on 
LinkedIn, Twitter, Facebook, everywhere, but I never heard of 
the Small Business Association.
    So, yes, it is mind-boggling. The people that I talk about 
this with at the Small Business Association, a lot of them are 
small business owners, the same as I. They haven't heard about 
the Business Association either. I hadn't heard about Mr. 
Loewel until he contacted me. So to me, again, it boggles my 
mind how there is so much out there that we don't know.
    So isolation is one problem. I think that organizations 
like the Small Business Association need to do some sort of 
outreach to us to let us know that they are there, and that 
there are so many resources that we can tap into to make our 
business grow.
    So back to your question, this program has helped me a lot 
because it helped me to recognize where am I standing at all 
levels, financially, business development, human resources, and 
understanding my business in-depth has helped me to create 
goals, goals that are smart, that are attainable, that are 
time-bound, not just goals that it came out to my brain but 
goals that are reachable. I have been crafting my goals for the 
past six months under the supervision of professionals, 
professionals in marketing, professionals in the finance. I 
didn't know about the small business loans. I didn't know about 
dealing with the government, with the state, with the county, 
and how to reach them as a small business. There is a lot of 
money and opportunities for us, but I as a small business, I 
need to be prepared. I don't have any certifications. I am 
currently working on all my certifications as a small business 
owner, as a woman owner, as a minority owner that I didn't know 
before.
    As I mentioned, my growth as a small company has been 
organic, and I have not done any outreach to the government or 
to other companies that are out there. Usually they come to us. 
So this leadership program not only helped me to understand my 
capabilities as a leader but the capabilities of my business 
and how can I reach my goals in terms of growing, getting more 
employees, helping small businesses like mine to thrive based 
on my experiences. This is what the small business program has 
done for me.
    Ms. CHU. And would you recommend this program to other 
small business executives?
    Ms. BONILLA. I would, definitely. I have been putting the 
word out about this program because it is important that they 
understand it. Like I mentioned, I have been talking to small 
business owners, especially Hispanics in the same circumstances 
that I am currently. They never heard about this program, and 
they are amazed that this is available for them for free. Many 
Hispanics, as was mentioned before, trust is a big issue 
amongst Hispanics, and wow, it is free. Is there something 
wrong? Are there some hidden fees? Do we have to give them 
something in return? What is in there? It cannot be possible.
    I have an advisor, I have a business coach available for 
me, answering my questions. It has to be something out there. 
So building trust is very important. As I mentioned, the 
outreach is very important. So I am now an advocate for all the 
resources that are there. I actually made an appointment with 
Mr. Loewel for advisory in different facets of my company 
because I want to know more. I want to know, and I want to be 
able to tell other businesses my experiences and where to go.
    Ms. CHU. Mr. Salahi, do you have an SBA loan yet, or are 
you exploring that?
    Mr. SALAHI. Not yet.
    Ms. CHU. So can you tell me what that process is like and 
what you are thinking?
    Mr. SALAHI. Sure. I believe all the details of different 
loan programs, everything is shown and stated in SBA's website. 
But navigating through the website is a challenge. It is a huge 
website. It has a lot of good information. Putting together all 
the information is difficult.
    So I believe if SBA or SBDC can provide, if they don't do 
it currently--maybe they do. If they provide an online small 
business educational webinar monthly that people like myself 
and entrepreneurs like myself can go there and learn in one 
hour or two hours about the overall process, and then they will 
be put in touch with the right people to take it on from there.
    I don't know if I answered your question.
    Ms. CHU. Of course, yes, because what I want to know is 
what the SBA or Congress can do to make small business owners 
like you more aware so that you can more easily reach this 
information.
    Mr. SALAHI. Sure. I believe they have been doing great, 
great work, and that is how I got to know Mr. Loewel, and that 
is how Ms. Bonilla got to know SBA and different services that 
are provided. But still, marketing towards immigrants and 
bringing them to the table to talk and learn needs more 
marketing budgets. Marketing, as everybody knows, is not cheap. 
You need a lot of marketing to get to small businesses.
    Ms. CHU. Very good.
    Well, I would like to conclude this panel by asking each of 
you how you would answer this question. We found dramatic 
evidence that immigrants start and own businesses at higher 
rates than native-born Americans, twice as high of a rate. Why 
is that the case? Why are immigrants more entrepreneurial, have 
more of that entrepreneurial spirit?
    Let's start here with you, Mr. Salahi.
    Mr. SALAHI. Sure. I believe it roots in cross-cultural 
experience that immigrants bring to the United States. So they 
come here, they have seen a few other situations in other 
countries. For instance, Starbucks was created and inspired to 
be created by an Italian coffee system. So that cross-cultural 
helped that person to learn, okay, I can do this business. So 
when immigrants come here, they pick up the business 
opportunity and turn it into a company.
    And also, when we come here, we know we are here, we have 
no support. It is us. It is me and my clothes. So I have to do 
everything I can do to take my life to the next level. In my 
case, I came to the United States when I was 31 years old, 
right? Not that old, but still I was not 20 or 18 or 17 to have 
time to build my life. I had to put it on steroids to go 
forward, and that is why we go the extra mile. We go through 
the pressure and everything that is there to make a business.
    So, I hope I answered your question.
    Ms. CHU. Yes, very well.
    Ms. Bonilla?
    Ms. BONILLA. Okay, thank you for asking. There are three 
basic points that I would like to touch. Number one is 
motivation. I think we are very motivated. Immigrants are very 
motivated people because we come from countries with unstable 
economies, lack of opportunity. So you come to this country and 
you see opportunities. I mean, it is amazing how somebody with 
no knowledge can be successful in business, educate themselves 
and create a stable business. So number one is motivation. 
Hispanics would see what others are doing and we say ``si se 
puede,'' which means ``we can do it.'' So if you can do it, I 
can do it; why not?
    We are creative people. We see things differently than 
everybody else, and we like to solve problems and find 
different approaches. We never give up.
    And we are not afraid of working hard. I can be having a 
meeting--in fact, our company worked with Apple stores, and we 
had a meeting with Steve Jobs. So we were able to meet, a small 
firm from immigrants, created from immigrants, meeting with 
Steve Jobs. Yet, I go back to my small office and I have to 
take the trash out, like I said. So we are not afraid to get 
the work done and get our hands dirty.
    So those are the three points: motivation, opportunity, 
creativity, including hard working.
    But, Ms. Chu, let me tell you this: the problem I believe 
is not how many businesses are owned by Latinos. Like I 
mentioned before, in 1998 about 4.4 million Latinos owned 
businesses in the U.S. and contributed more than $700 billion 
to the economy. But the problem is that we stay small. Most of 
these small businesses stay small. We don't grow to the level 
where we are supposed to be. So that is where we need help. We 
need help in growing.
    Ms. CHU. Yes, thank you.
    Mr. LOEWEL. stion. In my experience, entrepreneurship is 
hard, and it is not for everyone. As far as I can tell, the 
immigrant business owners that we work with tend to be very 
determined to succeed. I don't know if it is because they went 
through a lot to come to the US. I think a lot of it is related 
to how they were raised. A high number of their parents are 
small business owners. But, they are willing to put in the time 
and work really hard, and that's what it takes.
    Ms. CHU. Thank you.
    Ms. ARIZMENDI. Thank you. My response will be in what we 
have experienced and what we have learned from our clients.
    The first is it is what people know. When people are coming 
from another country, this is work they have done before, and 
they are doing what they feel most familiar with.
    In other cases that we have seen, education doesn't 
transfer over. They may have an education in their country. 
They come to the U.S., and they can't translate that into a 
degree that the U.S. will accept in different jobs.
    Thirdly, we see a lot of communities that come to the U.S., 
immigrants that come to the U.S., and they come to where they 
either have family members or a family member knows another 
family member. I will use the Korean community with doughnut 
shops. Everyone asks why are there doughnut shops and Koreans? 
Why are there so many? It is because when immigrants come here, 
they go to the family members or the friends of family members 
that are in that business. They learn the business and they 
continue doing that business or an offshoot of that type of 
business.
    And lastly, I think it is the American Dream. There are 
many immigrants that come here who want to work hard, and 
whatever it takes for them to do that, they will do it.
    Ms. CHU. Mr. Fung?
    Mr. FUNG. Thank you. I think there is more opportunity in 
this country compared to where I come from in Hong Kong. In 
Hong Kong, we always work 13, 14 hours per day. We do 
everything, and then we see the opportunity here. And then also 
to own a business is a kind of satisfaction.
    Ms. CHU. Well, thank you so much. Let me make a closing 
statement, which is that while our region has always had a 
strong entrepreneurial spirit, more has to be done to ensure 
that all who want to take advantage of the American Dream can 
do so.
    We heard firsthand from all of our witnesses about how 
immigrants do not just make great business owners but also 
strengthen our economy and bring so much to our communities. 
However, challenges remain, from access to capital to basic 
mentorship and training, and that is why we need to leverage 
the capabilities of the Small Business Administration to reach 
new entrepreneurs from many different backgrounds to educate 
and ensure their success.
    I would like to thank each of you for sharing your stories 
and giving us ideas for how we can help your small business 
grow and thrive.
    And I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    If there is no further business to come before this 
Committee, we are adjourned. Thank you.
    [Applause.]
    [Whereupon, at 11:24 a.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            


                                 <all>
</pre></body></html>
